             DEPARTMENT OF HEALTH AND HUMAN SERVICES                                Office of Inspector General
                                                                                     Office of Audit Services

                                                                                          REGION IV
                                                                              61 Forsyth Street, S.W., Suite 3T4J
                                                                                   Atlanta. Georgia 30303

                                            APR 2 3 2009

Report Number: A-04-08-07002

Mr. Bruce Hughes
President/CEO
Palmetto GBA
P.O. Box 100134
Columbia, South Carolina 29202

Dear Mr. Hughes:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled "Review of Palmetto GBA's Medicare Outpatient Payments
for Oxaliplatin Drug Services in North Carolina." We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are made
available to the public to the extent that information in the report is not subject to exemptions in
the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Andrew Funtal, Audit Manager, at (404) 562-7762 or through e-mail at
Andrew.Funtal@oig.hhs.gov. Please refer to report number A-04-08-07002 in all
correspondence.

                                               Sincerely,

                                              cP~d ac~~~. .
                                               Peter J. Barbera
                                               Regional Inspector General
                                                for Audit Services

Enclosure
Page 2 – Mr. Bruce Hughes

Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  REVIEW OF PALMETTO GBA’S
    MEDICARE OUTPATIENT
  PAYMENTS FOR OXALIPLATIN
   DRUG SERVICES IN NORTH
          CAROLINA




                    Daniel R. Levinson
                     Inspector General

                        April 2009
                      A-04-08-07002
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.
Section 4523 of the Balanced Budget Act of 1997 (P.L. No.105-33) provides authority for CMS
to implement an outpatient prospective payment system (OPPS) for hospital outpatient services.
Under OPPS, CMS pays a predetermined amount for designated services and provides for an
additional payment, referred to as transitional pass-through payments, for certain innovative
medical devices, drugs, and biologicals.

Oxaliplatin is a chemotherapy drug used to treat colon or rectal cancer. Effective July 1, 2003,
hospitals were instructed to bill for Oxaliplatin using Healthcare Common Procedure Coding
System (HCPCS) code C9205 to allow a transitional pass-through payment under OPPS. The
use of HCPCS code C9205 requires hospitals to bill one service unit for each 5 milligrams of
Oxaliplatin administered to a patient.

Palmetto GBA (Palmetto) is the Medicare fiscal intermediary for North Carolina. During
calendar years (CYs) 2004 and 2005, Palmetto processed and paid outpatient claims for
Oxaliplatin services in the State of North Carolina.

OBJECTIVE

Our objective was to determine whether Medicare payments that Palmetto made to hospitals in
North Carolina for Oxaliplatin services were appropriate.

SUMMARY OF FINDINGS

At the time of our review, most of the claims that Palmetto paid for Oxaliplatin services were
correct. We reviewed 91 claims Palmetto paid for Oxaliplatin services provided during CYs
2004 and 2005. Our analysis indicated that, at the start of our fieldwork in April 2008:

      Two payments were correct, as initially paid.

      Eighty-three of the payments were incorrect as initially paid; however, the hospitals
       identified and refunded the $1,762,070 in overpayments to Palmetto.

      Six of the payments were incorrect, and the hospitals had not refunded the $160,096 in
       overpayments.

The overpayments occurred because Palmetto did not have edits in place during CYs 2004 or
2005 to ensure that the units of Oxaliplatin billed corresponded to the units administered.




                                                i
RECOMMENDATIONS

We recommend that Palmetto:

       recover the $160,096 in overpayments and

       establish procedures to ensure that units billed for pass-through drugs under OPPS
        correspond to the units of drug administered.

PALMETTO GBA COMMENTS

In written comments on our draft report, Palmetto agreed with our recommendations and
described its plan of action. Palmetto’s comments appear in their entirety as the Appendix.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                           Page

INTRODUCTION.............................................................................................................1

      BACKGROUND ........................................................................................................1
          Outpatient Prospective Payment System ..........................................................1
          Oxaliplatin.........................................................................................................1
          Palmetto GBA...................................................................................................1

      OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................1
          Objective ...........................................................................................................1
          Scope.................................................................................................................2
          Methodology .....................................................................................................2

FINDINGS AND RECOMMENDATIONS ...................................................................3

      FEDERAL REQUIREMENTS...................................................................................3

      EXCESSIVE UNITS OF SERVICE ..........................................................................3

      RECOMMENDATIONS ............................................................................................4

      PALMETTO GBA COMMENTS …………………………………………………..4

APPENDIX

      PALMETTO GBA COMMENTS




                                                                    iii
                                               INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.
Medicare guidance requires hospitals to bill services accurately, using proper Health Care
Common Procedure Coding System (HCPCS) codes, and reporting units of service specifying
the number of times the service or procedure was performed.

Outpatient Prospective Payment System

Section 4523 of the Balanced Budget Act of 1997 (P.L. No. 105-33)1 provides authority for CMS
to implement an outpatient prospective payment system (OPPS) 2 for hospital outpatient services.
OPPS services are identified by HCPCS and classified into clinically comparable groups called
Ambulatory Payment Classifications (APC). Under OPPS, CMS pays a predetermined amount
for designated services and provides for additional payments, referred to as transitional pass-
through payments, for certain innovative medical devices, drugs, and biologicals.

Oxaliplatin

Oxaliplatin is a chemotherapy drug used to treat colon or rectal cancer. Effective July 1, 2003,
hospitals were instructed to bill for Oxaliplatin using HCPCS code C9205 to allow a transitional
pass-through payment under OPPS. The use of HCPCS code C9205 requires hospitals to bill
one service unit for each 5 milligrams of Oxaliplatin administered to a patient.

Palmetto GBA

Palmetto GBA (Palmetto) is the Medicare fiscal intermediary for North Carolina. During
calendar years (CYs) 2004 and 2005, Palmetto processed and paid outpatient claims for
Oxaliplatin services in the State of North Carolina.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicare payments that Palmetto made to hospitals in
North Carolina for Oxaliplatin services were appropriate.




1
    The Act §§ 1833(t) and 1871; 42 U.S.C. §§ 1302, 1395(t), and 1395(hh).
2
 OPPS was published in the Federal Register (65 Fed. Reg. 18434 (Apr. 7, 2000)) and went into effect on August 1,
2000.

                                                          1
Scope

We reviewed 91 Medicare payments, totaling $2,189,223 that Palmetto made to hospitals in
North Carolina for Oxaliplatin services provided during CYs 2004 and 2005.

We limited our review of Palmetto’s internal controls to those applicable to processing and
paying for Oxaliplatin services because our objective did not require an understanding of all
internal controls over the submission of claims. Our review allowed us to establish reasonable
assurance of the authenticity and accuracy of the data obtained from the National Claims History
file, but we did not assess the completeness of the file.

We performed our fieldwork from April through August 2008. Our fieldwork included
contacting Palmetto, located in Columbia, South Carolina, and the providers in North Carolina
that received payments for Oxaliplatin services.

Methodology

To accomplish our objective, we:

       reviewed applicable Medicare laws, regulations, and guidance;

       used CMS’s National Claims History file to identify the Medicare fiscal intermediaries
        that, during CYs 2004 and 2005, processed outpatient claims with a paid amount of
        $50,000 or less and had an average utilization level of 100 units or more of Oxaliplatin
        (payments over $50,000 were reviewed in other audits);

       selected for our review the 91 outpatient claims paid by Palmetto in North Carolina with
        a paid amount of $50,000 or less and a utilization level of 100 units or more of
        Oxaliplatin;

       contacted Palmetto and the hospitals that received the payments to determine whether the
        identified Oxaliplatin services were billed correctly and, if not, why the services were
        billed incorrectly; and

       requested Palmetto and the hospitals to quantify the overpayments.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                 2
                           FINDINGS AND RECOMMENDATIONS

At the time of our review, most of the claims that Palmetto paid for Oxaliplatin services were
correct. We reviewed 91 claims Palmetto paid for Oxaliplatin services provided during CYs
2004 and 2005. Our analysis indicated that, at the start of our fieldwork in April 2008:

      Two payments were correct, as initially paid.

      Eighty-three of the payments were incorrect as initially paid; however, the hospitals
       identified and refunded the $1,762,070 in overpayments to Palmetto.

      Six of the payments were incorrect, and the hospitals had not refunded the $160,096 in
       overpayments.

The overpayments occurred because Palmetto did not have edits in place during CYs 2004 or
2005 to ensure that the units of Oxaliplatin billed corresponded to the units administered.

FEDERAL REQUIREMENTS

Section 9343(g) of the Omnibus Budget Reconciliation Act of 1986 requires hospitals to report
claims for outpatient services using coding from the HCPCS that describe the services provided,
as well as the service units for these codes. The Medicare Claims Processing Manual,
Publication No. 100-04, Chapter 4, section 20.4, states: “The definition of service units . . . is the
number of times the service or procedure being reported was performed.” In addition, Chapter 1,
section 80.3.2.2, of this manual states: “In order to be processed correctly and promptly, a bill
must be completed accurately.”

Through its Transmittal A-03-51, Change Request 2771, dated June 13, 2003, CMS instructed
outpatient hospitals, effective July 1, 2003, to bill for Oxaliplatin using HCPCS code C9205
(APC 9205) to allow a transitional pass-through payment under OPPS. The description for
HCPCS code C9205 is injection, Oxaliplatin, per 5 milligrams. Therefore, the use of HCPCS
code C9205 requires hospitals to bill one service unit for each 5 milligrams of Oxaliplatin
administered to a patient.

EXCESSIVE UNITS OF SERVICE

On 89 claims, Palmetto paid five hospitals 10 times the correct number of service units for
Oxaliplatin furnished to Medicare patients during CYs 2004 and 2005. Rather than paying one
service unit for each 5 milligrams of Oxaliplatin administered, as CMS requires, Palmetto paid
one service unit for each 0.5 milligrams administered. Before the start of our audit, the hospitals
correctly adjusted the service units on 83 of the 89 incorrect claims and had refunded the
$1,762,070 in overpayments. For the six remaining claims, neither Palmetto nor the hospitals
had identified and refunded $160,096 in overpayments.

The overpayments occurred because Palmetto did not have edits in place during CYs 2004 or
2005 to ensure that the units of Oxaliplatin billed corresponded to the units administered.

                                                  3
RECOMMENDATIONS

We recommend that Palmetto:

       recover the $160,096 in overpayments and

       establish procedures to ensure that units billed for pass-through drugs under OPPS
        correspond to the units of drug administered.

PALMETTO GBA COMMENTS

In written comments on our draft report, Palmetto agreed with our recommendations and
described its plan of action. Palmetto’s comments appear in their entirety as the Appendix.




                                                4
APPENDIX
                                                                                              APPENDIX
                                                                                               Page 1 of 2
             Palmetto GB                                                                      Bruce W. Hughes




March 23, 2009


Peter J. Barbera
Regional Inspector General for Audit Services
Department of Health and Human Services
Office of Inspector General
61 Forsyth Street, S.W., Suite 3T41
Atlanta, Georgia 30303

Reference: Draft Report No. A-04-08-07002

Dear Mr. Barbera:

This letter is in response to the recent Office ofInspector General (010) draft report entitled "Review of
Palmetto's Medicare Outpatient Payments for Oxaliplatin Drug Services in North Carolina, Intermediary
#382, for the Period January 1, 2004, Through December 31, 2005." We appreciate the feedback that
your review provided and are committed to continuously improving our service to the Medicare
beneficiaries and providers we serve.

As stated in the draft report, overall it was found that 89 of the 91 outpatient claims reviewed resulted in
overpayments. Palmetto GBA paid one service unit for each .05 milligrams administered rather than
paying one service unit for each 5 milligrams of Oxaliplatin administered for five hospitals. It was noted
in the review that hospitals correctly adjusted the service units on 83 of the 89 incorrect claims and
refunded the $1,760,070 in overpayments.

Palmetto GBA has completed adjustments for the remaining six claims identified as overpayments,
fulfilling the recommendation set forth by the OIG review to recover the $160,096 in identified
overpayments.

Palmetto GBA will also implement controls to ensure the units billed for pass-through drugs under
OPPS correspond to the units of drug administered. The controls will likely include the expansion and
implementation of additional prepayment edits to mitigate excessive payments.

Palmetto GBA continues to take a very proactive approach to provider education delivering clear,
concise, and timely instruction in all possible educational venues. The following educational initiatives
have been completed to reinforce provider education as it relates to billing and high-dollar payments:

•   September 2008 Medicare Advisory (ACT Teleconference Announcement Published)
•   September 11,2008 ACT Teleconference Announcement and Minutes
•   September 2008 High Dollar Edit article posted to the Palmetto GBA website




                                  www.paimettogba.comlpost Office Box 100134
                                        ISO 9001 :2000 Columbia, South Carolina 29202-3134
                                                                                            APPENDIX
                                                                                             Page 2 of 2
Peter J. Barbera
March 23,2009
Page 2



    In addition, we have upcoming workshops in April 2009 where we will reinforce provider education as
    it relates to billing pass-through drugs under OPPS and the need to correspond the units of drugs
    administered to the units billed.

    Thank you for providing Palmetto GBA with the opportunity to provide feedback regarding your
    review. If you have any questions, please do not hesitate to contact me.

                                                                  Sincerely


                                                           ~Li ev,U-t-
    cc:     Sandra Y. Brown, Atlanta Regional Office, eMS




                                                      I
                                   wwwpalmettogba.com Post Office Box 100134
                                        ISO 9001:2000 Columbia, South Carolina 29202-3134
